No. 19-1283
IN THE
SUPREME COURT OF THE UNITED STATES
JAMES TOLLE,
Petitioner,
vs.
GOVERNOR RALPH NORTHAM
AND THE COMMONWEALTH OF VIRGINIA,
Respondents.
James Tolle,

do swear or declare that on this
, 2020 , as required by Supreme Court Rule
29 I have served the enclosed PETITIONER'S SUPPLEMENTAL BRIEF on each party to the
above proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days. The names and addresses of those served
are as follows:

date,

.)1-1

6

Attorney General Herring
Office of the Attorney General
202 North Ninth Street
Richmond, VA 23219
Solicitor General Heytens
Office of the Attorney General
202 North Ninth Street
Richmond, VA 23219
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

J 17

4

, 2020
By:
Jame
Pr
11f71 Soldiers Court
Manassas, VA 20109
703-232-9970
jtmail0000@yaho o.com

